      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                               Washington, D.C. 20201



April 7, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at Brooklyn Child and Family Services, Inc.’s
                Head Start and Early Head Start Programs (A-02-09-02021)


The attached final report provides the results of our limited scope review of Brooklyn Child and
Family Services, Inc.’s (BCAFS’s) capacity to manage and account for Federal funds and
operate its Head Start program in accordance with Federal regulations. This review was
requested by the Administration for Children and Families (ACF), Office of Head Start as part of
its overall assessment of Head Start grantees that have applied for additional funding under the
Recovery Act.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

BCAFS, a non-profit agency, operates both Head Start and Early Head Start programs that
provide educational, health, and social services to low-income families with children from the
ages of 12 weeks to 5 years in Brooklyn, New York. During grant year 2009 (February 1, 2008,
through January 31, 2009), ACF directly provided Head Start and Early Head Start funds to
BCAFS totaling $2,555,751. For the purpose of reporting our findings and recommendation, we
will use the term “Head Start funds” to represent both the Head Start and Early Head Start
programs.
Page 2 – Yvette Sanchez Fuentes


The objectives of our limited scope review were to determine whether: (1) BCAFS is fiscally
viable, (2) BCAFS’s financial management system adequately managed and accounted for
Federal funds, (3) BCAFS fiscal personnel are bonded, and (4) BCAFS met its funded
enrollment level.

Based on its current financial condition, BCAFS cannot ensure the continuing viability of the
organization as a going concern unless it receives additional funding. Also, BCAFS’s financial
management system does not adequately manage and account for Federal funds. As a result,
Federal Head Start funds were used to pay for non-Head Start expenditures, accounting records
were not properly maintained and reconciled, internal financial reporting was deficient, and the
GY 2009 financial status report included inaccurate data. In addition, BCAFS did not maintain
its funded enrollment level. Lastly, BCAFS fiscal personnel are bonded.

In written comments on our draft report, BCAFS stated that its Board of Directors and
management consider its financial situation “very serious and are taking very drastic measures to
remedy the situation,” and indicated steps it has taken or plans to take to address the subject.
BCAFS disagreed with some of our findings concerning its financial management system.
However, it agreed with some of our findings concerning its accounting methods and indicated
steps it has taken to adequately account for Federal funds. In addition, BCAFS provided
documentation related to its bonding insurance policy. After reviewing BCAFS’s documentation
related to its bonding insurance policy, we revised our finding accordingly.

In determining whether BCAFS should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing BCAFS’s capacity to manage and account for Federal funds.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be
posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-02-09-02021 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   RESULTS OF LIMITED SCOPE
  REVIEW AT BROOKLYN CHILD
  AND FAMILY SERVICES, INC.’S
       HEAD START AND
 EARLY HEAD START PROGRAMS




                      Daniel R. Levinson
                       Inspector General

                          April 2010
                        A-02-09-02021
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
and Early Head Start programs. Both programs provide grants to local public and private non-
profit and for-profit agencies to provide comprehensive child development services to
economically disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. Also, under the Act, ACF received $33
million for monitoring of newly-funded Early Head Start grantees and $110 million for training
and technical assistance.

Brooklyn Child and Family Services, Inc. (BCAFS), a non-profit agency, operates both Head
Start and Early Head Start programs that provide educational, health, and social services to low-
income families with children from the ages of 12 weeks to 5 years in Brooklyn, New York.
BCAFS also operates food, transitional housing, and youth and family service programs.

BCAFS is funded primarily through Federal and local government grants. During grant year
(GY) 2009 (February 1, 2008, through January 31, 2009), ACF directly provided Head Start and
Early Head Start funds to BCAFS totaling $2,555,751. For the purpose of reporting our findings
and recommendation, we will use the term “Head Start funds” to represent both the Head Start
and Early Head Start programs. In addition, BCAFS received Head Start and Early Head Start
Recovery Act grant funding for the project period July 1, 2009, through September 30, 2010,
totaling $142,294 for cost-of-living increases and quality improvement.

OBJECTIVES

The objectives of our limited scope review were to determine whether: (1) BCAFS is fiscally
viable, (2) BCAFS’s financial management system adequately managed and accounted for
Federal funds, (3) BCAFS fiscal personnel are bonded, and (4) BCAFS met its funded
enrollment level.

SUMMARY OF FINDINGS

Based on its current financial condition, BCAFS cannot ensure the continuing viability of the
organization as a going concern unless it receives additional funding. Also, BCAFS’s financial
management system does not adequately manage and account for Federal funds. As a result,
Federal Head Start funds were used to pay for non-Head Start expenditures, accounting records
                                                i
were not properly maintained and reconciled, internal financial reporting was deficient, and the
GY 2009 financial status report included inaccurate data. In addition, BCAFS did not maintain
its funded enrollment level. Lastly, BCAFS fiscal personnel are bonded.

RECOMMENDATION

In determining whether BCAFS should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing BCAFS’s financial condition.

BROOKLYN CHILD AND FAMILY SERVICES, INC., COMMENTS

In written comments on our draft report, BCAFS stated that its Board of Directors and
management consider its financial situation “very serious and are taking very drastic measures to
remedy the situation,” and indicated steps it has taken or plans to take to address the subject.
BCAFS disagreed with some of our findings concerning its financial management system.
However, it agreed with some of our findings concerning its accounting methods and indicated
steps it has taken to adequately account for Federal funds. In addition, BCAFS provided
documentation related to its bonding insurance policy. BCAFS’s comments are included as the
appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing BCAFS’s documentation related to its bonding insurance policy, we revised our
finding accordingly. With the exception of these revisions, we believe our findings and
recommendation are valid.




                                                ii
                                                  TABLE OF CONTENTS

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start and Early Head Start Program .........................................................1
              Brooklyn Child and Family Service, Inc. ..........................................................1
              Requirements for Federal Grantees ...................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................2
               Objectives ..........................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          BROOKLYN CHILD AND FAMILY SERVICES, INC., IS NOT
           FINANCIALLY VIABLE ..........................................................................................3
               Short Term Liquidity .........................................................................................3
               Trend and Ratio Analysis of Net Assets ............................................................4

          INADEQUATE FINANCIAL MANAGEMENT SYSTEM ........................................4
               Unallowable Costs .............................................................................................4
               Accounting Records Not Reconciled .................................................................5
               Time and Effort Reports Not Adequately Maintained .......................................6
               Internal Financial Reporting Deficiencies .........................................................6
               Financial Status Report Not Supported..............................................................6

          FISCAL PERSONNEL ARE BONDED .......................................................................7

          FUNDED ENROLLMENT LEVEL NOT MAINTAINED ..........................................7

          CONCLUSION ..............................................................................................................8

          RECOMMENDATION .................................................................................................8

          BROOKLYN CHILD AND FAMILY SERVICES INC., COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................8
               Financial Viability .............................................................................................8
               Financial Management System .........................................................................9
               Fiscal Personnel Bonded .................................................................................12
               Funded Enrollment Level Not Maintained ......................................................12




                                                                    iii
APPENDIX

    BROOKLYN CHILD AND FAMILY SERVICES, INC., COMMENTS




                               iv
                                                INTRODUCTION

BACKGROUND

Head Start and Early Head Start Programs

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
and Early Head Start programs.

The Head Start and Early Head Start programs provide grants to local public and private non-
profit and for-profit agencies to provide comprehensive child development services to
economically disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. Also, under the Act, ACF received $33
million for monitoring of newly-funded Early Head Start grantees and $110 million for training
and technical assistance.

Brooklyn Child and Family Service, Inc.

Brooklyn Child and Family Services, Inc. (BCAFS), a non-profit agency, operates both Head
Start and Early Head Start programs that provides educational, health, and social services to low-
income families with children from the ages of 12 weeks to 5 years in Brooklyn, New York.
BCAFS also operates food, transitional housing, and youth and family service programs.

BCAFS is funded primarily through Federal and local government grants. During grant year
(GY) 2009 (February 1, 2008, through January 31, 2009), ACF directly provided Head Start and
Early Head Start funds to BCAFS totaling $2,555,751. For the purpose of reporting our findings
and recommendation, we will use the term “Head Start funds” to represent both the Head Start
and Early Head Start programs. 1 In addition, BCAFS’s Head Start and Early Head Start
programs received Recovery Act grant funding for the project period July 1, 2009, through
September 30, 2010, totaling $142,294 ($46,826 for Head Start and $95,468 for Early Head
Start) for cost-of-living increases and quality improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees must maintain financial management systems that contain
written procedures for determining the reasonableness, allocability, and allowability of costs.
Also, grantees must maintain accounting records that are supported by source documentation and
1
    The dollar amounts identified in our findings included both Head Start and Early Head Start funding.


                                                           1
maintain financial systems that provide for accurate and complete reporting of grant-related
financial data. Grantees are also required to compare outlays with budget amounts for each
award and may use grant funds only for authorized purposes. In addition, pursuant to 45 CFR §
1301.11, Head Start agencies shall make arrangements for bonding officials and employees
authorized to disburse program funds. Pursuant to 45 CFR § 1305.7(b), a Head Start grantee
must maintain its funded enrollment level.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited scope review were to determine whether: (1) BCAFS is fiscally
viable, (2) BCAFS’s financial management system adequately managed and accounted for
Federal funds, (3) BCAFS fiscal personnel are bonded, and (4) BCAFS met its funded
enrollment level.

Scope

This review was performed based upon a limited scope request from ACF, dated June 19, 2009.
Therefore, we did not perform an overall assessment of BCAFS’ internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objectives. Our
review period was February 1, 2008, through January 31, 2009 (GY 2009).

We performed our fieldwork at BCAFS’s administrative office in Brooklyn, New York, during
July 2009.

Methodology

To accomplish our objectives, we;

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed BCAFS’s fiscal policies and procedures related to its financial management
        system and preparation of financial reports;

    •   reviewed minutes of BCAFS’s Board of Directors meetings;

    •   obtained Federal and local government grant award documentation to determine
        BCAFS’s Federal funding;

    •   reviewed BCAFS’s financial statements for fiscal years 2006 through 2008; 2




2
 We reviewed BCAFS’s audited financial statements for fiscal years (FYs) 2006, 2007, and 2008, which included
OMB Circular A-133 Single Audit Reports. BCAFS’s fiscal year starts on October 1 and ends on September 30.


                                                       2
   •   reviewed BCAFS’s expense accounts, monthly income statements, bank statements, and
       SF-269, Financial Status Reports, submitted to ACF;

   •   performed a liquidity analysis, and a ratio and trend analysis of BCAFS’s net assets;

   •   reviewed BCAFS’s cost allocation methodology and functional allocation schedules;

   •   reviewed BCAFS’s payroll records, including payroll registers, timesheets, and personnel
       activity reports;

   •   reviewed BCAFS’s development and administrative costs and non-Federal matching
       contributions; and

   •   reviewed BCAFS’s Head Start and Early Head Start enrollment levels.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Based on its current financial condition, BCAFS cannot ensure the continuing viability of the
organization as a going concern unless it receives additional funding. Also, BCAFS’s financial
management system does not adequately manage and account for Federal funds. As a result,
Federal Head Start funds were used to pay for non-Head Start expenditures, accounting records
were not properly maintained and reconciled, internal financial reporting was deficient, and the
GY 2009 financial status report included inaccurate data. In addition, BCAFS did not maintain
its funded enrollment level. Lastly, BCAFS fiscal personnel are bonded.

BROOKLYN CHILD AND FAMILY SERVICES, INC., IS NOT
FINANCIALLY VIABLE

To determine whether BCAFS is financially viable, we performed a liquidity analysis, and a
trend and ratio analysis of BCAFS’s finances for FY 2008.

Short Term Liquidity

We performed a liquidity analysis—the relationship of current assets to current liabilities—to
determine BCAFS’s ability to pay its current obligations. Generally, for an organization to be
considered fiscally sound, its current assets should be valued more than its current liabilities.
Our analysis indicated that BCAFS’s current liabilities exceeded its current assets (the current
assets-to-liabilities ratio was 0.92). In addition, BCAFS’s working capital—current assets
($299,787) less current liabilities ($326,187) —was negative (-$26,400). Positive working



                                                 3
capital is a common measure of an organization’s liquidity, efficiency, and overall health.
Negative working capital shows the inverse.

Trend and Ratio Analysis of Net Assets

We performed a 3-year trend analysis of BCAFS’s net assets. According to its financial
statements, BCAFS’s net assets decreased approximately 33 percent from FY 2006 through
FY 2008. Specifically, BCAFS’s net assets decreased $381,212 during this period—from
$1,150,505 in FY 2006 to $794,119 in FY 2007 (-$356,386) to $769, 293 in FY 2008 (-$24,826).

We also performed a saving indicator analysis—a comparison of net assets to total
expenditures—to measure BCAFS’s ability to increase its unrestricted net assets and to assess if
BCAFS is adding to or using up its net assets. Generally, if the ratio is greater than zero, the
organization is accumulating savings (unrestricted reserves). However, if the ratio is less than
zero, the organization is using existing savings to cover its operations. Based on BCAFS’s
decreased net assets (-$24,826) and total expenditures ($4,328,183), BCAFS’s saving indicator is
less than zero.

To ensure the continuing viability of the organization as a going concern, BCAFS must seek
additional funding from the Federal government or other sources.

INADEQUATE FINANCIAL MANAGEMENT SYSTEM

Unallowable Costs

Unallowable Fund Transfer

BCAFS improperly used Head Start funds to pay for non-Head Start expenditures. Specifically,
in January and February 2008, BCAFS transferred a total of $13,000 from its Head Start bank
account to another program account to pay expenditures incurred for its transitional housing
program. BCAFS could not document that $13,000 was repaid to the Head Start program.

Funds Used to Pay Prior Grant Year Expenditures

Pursuant to 45 CFR § 74.28, grant funds may only be used in the period for which the funds
were awarded. Contrary to Federal regulations, BCAFS used $26,445 in Head Start funds
allocated for GY 2009 to pay for expenditures incurred in GY 2008.




                                                4
Expenses Paid in Excess of Allocated Amount

Pursuant to OMB Circular A-122, Cost Principles for Non-Profit Organizations, App. A, § A.4.a
(2) (2 CFR pt. 230, App. A, § A.4.a(2)), a cost is allocable to a Federal award if it benefits both
the award and other work and can be distributed in reasonable proportion to the benefits
received. Contrary to Federal regulations, BCAFS used $129,912 of Head Start funds to pay
salary costs in excess of the amounts allocated to the Head Start program. 3 As detailed in the
below table, BCAFS improperly used Head Start funds to pay eight staff positions.

                Comparison of Salary Percentage Paid With Head Start Funds to
                   Salary Percentage Allocated to the Head Start Program

                                                         Actual            Allocated to Head
                       Staff Position                  Drawdowns            Start Program
             Executive Director                            88%                    67%
             Program Director                             100%                    67%
             Senior Accountant                             85%                    62%
             Human Resources Director                      94%                     0%
             Human Resources Specialist                    80%                    67%
             Facility Director                             30%                     0%
             Clerical Enrollment Coordinator             85-95%                   67%
             Receptionist                                 100%                     0%

Excessive Administrative Costs

Pursuant to 45 CFR § 1301.32(a)(1), allowable costs for developing and administrating a Head
Start program may not exceed 15 percent of the total approved costs of the program. 4 Contrary
to Federal regulations, BCAFS’s GY 2009 administrative costs ($689,893) represented 27
percent of its total approved costs ($2,530,276). 5 As a result, BCAFS exceeded the 15 percent
limitation ($379,541) on allowable FY 2009 development and administrative costs by 12 percent
($310,352).

Accounting Records Not Reconciled

Pursuant to 45 CFR § 74.21(b) (1), Federal grantees are required to maintain financial systems
that provide for accurate and complete reporting of grant-related financial data. BCAFS did not

3
 We reviewed BCAFS’s payroll drawdown schedules, cost allocation methodology, and the general ledger to
determine the total dollar effect of BCAFS’s excessive salary payments.
4
 Head Start grantees may apply for a waiver to exceed the 15 percent requirement for up to 1 year. BCAFS did not
apply for such a waiver.
5
  To determine BCAFS’s costs, we prepared a schedule of BCAFS’s development and administrative costs based on
its income statements for Head Start and Early Head Start as well as its functional allocation schedule.


                                                       5
reconcile its schedule of supporting expenditures to its general ledger for each of its drawdowns
from ACF’s electronic payment system. We attempted to reconcile without success. In addition,
BCAFS did not maintain payment records identifying the course and allocation of funds drawn
down. Therefore, we could not reconcile BCAFS’s expenses or verify that BCAFS used Federal
funds to pay for expenditures identified in its drawdown requests. As a result, we could not
determine if BCAFS accurately reported its expenditures to ACF on its GY 2009 final Financial
Status Report (FSR).

Time and Effort Reports Not Adequately Maintained

Pursuant to 45 CFR § 74.21(b) (6), Federal grantees must maintain written procedures for
allocating shared costs to all benefitting programs. In addition, pursuant to OMB Circular
A-122, Cost Principles for Non-Profit Organizations, App. B, § 8.m.(2)(a) (2 CFR pt. 230,
App. B, § 8.m(2)(a)), costs for salaries must be supported by time and effort reports that reflect
an after-the-fact determination of the actual activity of each grantee employee.

In accordance with Federal regulations, BCAFS’s policies and procedures required that
personnel activity reports be maintained for salaries that were allocated to more than one
program. However, we found that BCAFS did not maintain personnel activity reports for all of
its employees during our audit period.

Internal Financial Reporting Deficiencies

Pursuant to 45 CFR § 74.21(b) (4), Federal grantees are required to compare outlays with budget
amounts for each award. Further, pursuant to 45 CFR § 1304.51(d) (3), Federal grantees such as
BCAFS must ensure that financial reports are regularly provided to their governing bodies and
policy groups.

Contrary to Federal regulations, BCAFS did not prepare budgeted-versus-actual reports to
compare outlays with budget amounts for GY 2009. Consequently, BCAFS governing board
never received this information. In addition, BCAFS did not regularly provide other monthly
financial reports to its governing board either. According to BCAFS board meeting minutes,
BCAFS monthly financial reports were discussed at only 2 of the 14 board meetings held from
September 2007 through May 2009. 6           F




Financial Status Report Not Supported

As a condition for receiving Head Start funds, grantees such as BCAFS are required to provide
ACF with a final Financial Status Report (FSR) detailing expenditures paid during the grant
period. In addition, pursuant to 45 CFR § 1301.20(a), Federal financial assistance for a Head
Start program shall not exceed 80 percent of the total costs of the program. 7 Grantees are
required to obtain a minimum of 20 percent in non-Federal matching funds.

6
    Generally, grantees’ governing boards review financial reports on a monthly basis.
7
 Pursuant to 45 CFR § 1301.20(c), Federal financial assistance for training and technical assistance activities shall
be included in the Federal share in determining the total approved costs of the program.


                                                           6
Contrary to Federal requirements, BCAFS could not support the Federal share of net outlays,
totaling $2,530,276, reported on its GY 2009 SF-269, Financial Status Report to ACF. This
amount should represent expenditures in BCAFS’ general ledger. We tried to reconcile the
amount to the general ledger without success. We found that the Federal share of net outlays
exceeded the general ledger total by $37,639. As a result, we could not determine if BCAFS
accurately reported its expenditures to ACF on its GY 2009 final FSR.

Also, BCAFS reported $591,609 of in-kind contributions in non-Federal matching costs on its
GY 2009 FSR. However, BCAFS’s general ledger only identified $379,627 of in-kind
contributions in non-Federal matching costs, leaving $211,982 unsupported. In addition, for the
non-Federal matching costs identified in the general ledger, BCAFS did not maintain all required
supporting documents. Specifically, BCAFS did not maintain documents identifying the specific
nature and actual hours of services provided (e.g., home visits and maintenance services). In
addition, BCAFS did maintain documentation related to the valuation of in-kind matching
contributions for a board member’s services, which BCAFS valued at $725 per hour although
BCAFS’s board of directors determined that $52.20 per hour was reasonable. BCAFS could not
support why it valued the board member’s services $672.80 per hour more ($80,400 total) than
what the board determined was a reasonable valuation. Without proper supporting
documentation, BCAFS cannot ensure that it met its required non-Federal matching share.

FISCAL PERSONNEL ARE BONDED

Pursuant to 45 CFR § 1301.11, Head Start agencies shall make arrangements for bonding
officials and employees authorized to disburse program funds. We determined that BCAFS’s
fiscal personnel are bonded. Specifically, BCAFS’s insurance policy covers “employee theft” up
to $100,000. BCAFS’s policy does not include additional comprehensive coverage. 8

FUNDED ENROLLMENT LEVEL NOT MAINTAINED

Pursuant to 45 CFR § 1305.7(b), a Head Start grantee must maintain its funded enrollment level.
When a program determines that a vacancy exists, no more than 30 calendar days may elapse
before the vacancy is filled. 9 BCAFS’s Head Start funding was budgeted based on a funded
enrollment level of 203. However, as of June 30, 2009, 161 students were enrolled in BCAFS’s
Head Start program. As a result, the program’s actual enrollment was 21 percent less
(42 students) than its funded enrollment level. BCAFS’s independent auditors have reported this
finding to BCAFS for the last three fiscal years.



8
 In addition to “employee theft,” comprehensive coverage offered by BCAFS’s insurance company includes
protection against “depositors forgery or alteration;” “theft, disappearance and destruction;” “robbery and safe
burglary;” and “computer and funds transfer fraud.” We note that pursuant to 45 CFR 74.21(d), Federal agencies
may require adequate fidelity bond coverage where the grant recipient lacks sufficient coverage to protect the
Federal Government's interest.
9
    A program may elect not to fill a vacancy when 60 calendar days or less remain in the program’s enrollment year.



                                                           7
CONCLUSION

Based on its current financial condition, BCAFS cannot ensure the continuing viability of the
organization as a going concern unless it receives additional funding. Also, BCAFS’s financial
management system does not adequately manage and account for Federal funds. As a result,
Federal Head Start funds were used to pay for non-Head Start expenditures, accounting records
were not properly maintained and reconciled, internal financial reporting was deficient, and the
GY 2009 financial status report included inaccurate data. Lastly, funded enrollment levels were
not maintained.

RECOMMENDATION

In determining whether BCAFS should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing BCAFS’s financial condition.

BROOKLYN CHILD AND FAMILY SERVICES, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, BCAFS agreed with our findings concerning its financial
viability and funded enrollment levels. BCAFS disagreed with some of our findings concerning
its financial management system. However, BCAFS described steps it has taken or planned to
take to adequately account for Federal funds.

BCAFS disagreed with our finding concerning its employee bonding policy and provided
documentation concerning this policy. After reviewing the documentation, we determined that
its fiscal employees were bonded and revised our finding accordingly. We have summarized
BCAFS’s comments, along with our response, below, and we have included those comments as
the appendix.

Financial Viability

Brooklyn Child and Family Services, Inc., Comments

BCAFS stated that its “liquidity situation” was created by a decade of static funding and
increases in cost of living and inflation. BCAFS also stated that its Board of Directors and
management are “taking very drastic measures to remedy the situation,” including measures to
contain and address costs, raise funds, and identify new program sources and funding.

Office of Inspector General Response

We did not evaluate BCAFS’s measures to address its financial viability. Therefore, we could
not verify whether BCAFS will ensure the continuing viability of the organization as a going
concern.




                                                8
Financial Management System

Unallowable Fund Transfer

Brooklyn Child and Family Services, Inc., Comments

BCAFS disagreed with our finding that it made an unallowable fund transfer. BCAFS stated that
it maintained one bank account funded from Head Start and non-Head Start sources, and used a
vouchering system to ensure that Federal funds were not spent on non-Federal expenditures.
BCAFS wrote that the accounting for the activity during our audit period “may appear to be
unclear” but that it did not improperly use Head Start funds. BCAFS indicated that it has
instituted measures to prevent the likelihood of any such occurrences in the future.

Office of Inspector General Response

We maintain that Head Start funds should not be used to pay for non-Head Start expenditures,
even if the funds are returned. Pursuant to ACF Information Memorandum ACYF-IM-HS-01-
06, “Financial Management Issues in Head Start Programs Utilizing Other Sources of Funding,”
issued March 8, 2001, “Head Start grantees may not transfer, even on a temporary basis, funds
from Head Start to compensate for delayed or late payment from other funding sources unrelated
to the Head Start Act and for costs that are not allowable in Head Start.” Contrary to this
program guidance, BCAFS transferred Head Start funds from its Head Start bank account to its
transitional housing program bank account to cover non-Head Start expenditures.

Funds Used to Pay Prior Grant Year Expenditures

Brooklyn Child and Family Services, Inc., Comments

BCAFS agreed with our finding that it used current grant funds to pay $26,445 of prior grant
year expenditures. However, BCAFS stated that this amount represented the Head Start portion
of GY 2008 unrecorded expenditures that should have been accrued at the end of GY 2008 and
paid for from GY 2008 funds obligated in 2009. BCAFS called the expenditures “an error in
accounting.”

Office of Inspector General Response

BCAFS’s justification for obligating GY 2008 expenditures to its GY 2009 funding is flawed.
BCAFS could not have included the questioned amount as an accrual in GY 2008 because
BCAFS expended its entire GY 2008 funding. Therefore, there were no GY 2008 funds
available to pay for these expenditures. Pursuant to 45 CFR § 74.28, grant funds may only be
used in the period for which the funds were awarded.




                                               9
Expenses Paid in Excess of Allocated Amount

Brooklyn Child and Family Services, Inc., Comments

BCAFS disagreed with our finding that it used Head Start funds to pay salary costs in excess of
amounts allocated to the Head Start program. BCAFS stated that its salary costs were within its
approved budget and that the costs charged to these positions were in direct relationship to the
actual benefits received by Head Start programs.

Office of Inspector General Response

Our finding is based on BCAFS’s actual salary costs–not its budgeted salary costs. In addition,
although a portion of these costs were related to the Head Start program, BCAFS used Head
Start funds to pay for these salary costs, including those portions not related to the Head Start
program.

Excessive Administrative Costs

Brooklyn Child and Family Services, Inc., Comments

BCAFS disagreed with our finding related to excessive administrative costs. BCAFS stated that
its costs were in line with its GY 2009 budget and believes the excess costs in our finding
include expenditures which BCAFS did not use as matching sources in determining its
15-percent limitation.

Office of Inspector General Response

We reviewed BCAFS’s actual administrative personnel and non-personnel costs for developing
and administering its Head Start program–not its budgeted costs. BCAFS exceeded the 15-
percent limitation by 12 percent ($310,352). This excess amount was paid with Head Start funds
and cannot be considered matching costs.

Accounting Records Not Reconciled

Brooklyn Child and Family Services, Inc., Comments

BCAFS did not indicate concurrence or non-concurrence with our finding regarding its
accounting records not being reconciled. However, BCAFS stated that it could not locate
documentation to support its drawdowns during our review period because of “unprecedented
turnover of personnel.”




                                                10
Time and Effort Reports Not Maintained

Brooklyn Child and Family Services, Inc., Comments

BCAFS disagreed with our finding that it did not maintain time and effort reports. BCAFS
stated that it implemented a time and effort reporting system in December 2008. BCAFS stated
that the system is being appropriately followed.

Office of Inspector General Response

Based on BCAFS’s comments, we revised our finding to indicate that its system was not fully
implemented during our audit period. To ensure that its time and effort reporting system was in
place since December 2008, we reviewed selective timesheets for pay periods ending December
12, 2008 and April 3, 2009. We found that BCAFS’s system did not reflect an after-the-fact
determination of the actual activity of the administrative staff.

Internal Financial Reporting Deficiencies

Brooklyn Child and Family Services, Inc., Comments

BCAFS stated that it has instituted measures to regularly report its finances to its governing
board. The reports contain information on cash flows and cash management, and monthly
budgeted-versus-actual expenses with explanations of variances and analysis to ensure that
BCAFS’s financial operations are in accordance with Federal and Head Start reporting
guidelines.

Financial Status Report Not Supported

Brooklyn Child and Family Services, Inc., Comments

BCAFS disagreed with our finding that its general ledger did not support net outlays and in-kind
contributions reported on its GY 2009 FSR. BCAFS stated that the disparity in net outlays was
due to “the capability of BCAFS general system.” BCAFS also stated that $211,982 of
unsupported in-kind contributions “represent other non-Federal funding sources used by BCAFS
as a match” and that these funds are recorded in those sources’ accounts. Therefore, BCAFS
stated that its general ledger will not show a total of $591,609 of in-kind contributions.

BCAFS did not comment on our finding regarding unsupported services and the valuation of its
in-kind contributions.

Office of Inspector General Response

We cannot verify BCAFS’s statement that the $211,982 represented “other non-Federal funding
sources” because BCAFS did not provide documentation for its reclassification of these
matching funds.




                                                11
Fiscal Personnel Bonded

Brooklyn Child and Family Services, Inc., Comments

BCAFS disagreed with our finding on fiscal personnel not bonded and provided a copy of its
bonding policy.

Office of Inspector General Response

After reviewing the documentation, we determined that BCAFS’s fiscal employees were bonded
and revised our finding accordingly.

Funded Enrollment Level Not Maintained

Brooklyn Child and Family Services, Inc., Comments

BCAFS said that it has encountered lowered enrollment and has aggressively sought to address
the problem. In addition, BCAFS said that it is confident that it will meet its target goal of full
enrollment by February 1, 2010.




                                                 12
APPENDIX
                                                                                                                             Page 1 of 4


APPENDIX: BROOKLYN CHILD AND FAMILY SERVICES, INC., COMMENTS 





                   Brooklyn Child and Family Services, Inc. 

                                                         44-60 Rockwell Place, Brooklyn, NY 11201
                                                          Tel.: (718) 330·0845 FHX: (718) 330-0846




                                       December 10, 2009

                                       James P. Edert
                                       Regional Inspector General for Audit Services
O><uIr_ n~plus T """                   Office of Inspector general
Ilooooo\Wllomo, .... ' .-II            Office of Audit Services
                                       Jacob Javits Federal Building
                                       26 Federal Plaza - Room 3900
                                       New York, NY 10278
.... "' ,.. .."OIIOtI,QIOit
,,__ """"",""""n. .... _ .
                         ~'    CI\o~




.... J....oIIoA.~ MIlA.\""""' <        Re: Report Number - A02-09-02021
                     011!._
Ms. ..................
                                       Dear Mr. Edert,
M._I ...." " " " " ' - .....
MI. MId'IotI M...
                                       Brooklyn Child and Family Services (BCAFS), in accordance with the required 5-day
                                       response to the Department of Health & Human Services Office of the Inspector
                                       General's findings in relation to the above captioned report number, submits the
M '._~                                 detailed response for you to review.

                                       Financial Viability 

                                       Find ing: 

                                       Per your finding you Indicated that, based upon BCAFS current financial condition 

                                       BCAFS cannot ensure continuing viability of the organization as a going concern 

                                       Response: 

                                       The organization is funded in conjunction with certain State and City funding sources. 

                                       Our funding from all these sources has been static over the past decade, although 

                                       cost of living and inflation has been on the increase which has created our liquidity 

                                       situation. T he Board of Directors and Management consider the situation very serious 

                                       and are taking very drastic measures to remedy the situation. Among various issues 

                                       being worked on aggressively are cost containment and reduction, fund raising, 

                                       identifying new program sources and funding to complement federal and other non­ 

                                       federal sources currently available. 


                                       Unallowable Costs 

                                       Finding : 

                                       BCAFS improperly used Head Start funds to pay for non- Head start expenditures. 


                                              m;"o','o   one basic operating account for its program. Funds are transferred
                                       from Head Start sources and other non- Head Start sources inlo this account to
                                       discharge all agency obligations. BCAFS has been on a vouchering system since
                                       2007. This means that the Agency only requests from federal sources agency
                                       expenses allocated to Head Start programs which will go direclly to discharge those
                                       obligations. Therefore no additional federal funds remain to be spent on Non-federal
                                       expenditures. The accounting for the activity at the time may appear 10 be unclear but
                                       it was not improper use of Head Start funds to pay for non-Head Start
                                                                                                    Page 2 of 4




expenditures. However, to avoid the appearance of impropriety. Management has instituted
measures to prevenllhe likelihood of any such OC1:urrences in the future .

Funds Used to Pay Prior Grant Year Expenditures
Finding:
BCAFS used $26,445 in Head Start Funds allocated for FY 200910 pay for expenditures
incurred in GY 2008.
Response:
The amount in question represented the Head Start portion of unrecorded, as of the end of GY
2008, expenditures for the 2008 GY. This should have been accrued althe end of GY 2008 and
paid for from GY 2008 funds obligated in 2009. It was an error in accounting. BCAFS has since
updated its accounting systems, and is placing greater emphasis on the accurate recording of
program activity, and has put measures In place to obligate funds in the appropriate grant year
so as to prevenl any such future occurrences.

Expenses Paid in Excess of Allocated Amount
Finding:
Contrary to Federal Regulations BCAFS used $129,912 of Head Start Funds to pay salary costs
in excess of amounts allocated to the Head Start program:
Response:
BCAFS salary costs for the period audited Is within Its approved budget for the period. By
definition, pursuant to OMB Circular A-122, Cost Principles of Non-Profit Organizations, App. A,
a cost is allocable to a Federal Award if it benefits both the award and other work and can be
distributed in reasonable proportion to the benefits received. The cost charged 10 these
positions is in direct relationship to the actual benefits received by Head Start programs. The
Agency is supposed \0 match federal expenditures al a 20% rate in In-kind and Non-federal
matching funds which the Agency has done. Payments on the personnel costs referred 10 in the
report are from both Head Slart and Non- Head Start funds because the work performed by said
personnel direclly benefited both programs. The Agency therefore does not agree with Ihe
finding .

Excessive Administrative Costs
 i
          GY 2009 administrative cost exceeded the15 percent limitation on allowable FY 2009
~e',ei,op'ne " t and administrative cost by 12 percent:

        '!:,~I::, f~~, GY 2009 was in line with the 15 percent administrative limitation. The
Agency?:           with Ihal budget proposal and monitored its administrative costs in GY 2009 to
ensure thai it was wilhin the limitation. The Agency believes the excess percentages being
reported is taking into consideralion expenditures which the Agency was not using as matching
sources in the determination of the 15 percent limitation. The Agency is therefore not in
agreemenl with this finding .

Accounting Records Not Reconciled
Finding:
BCAFS did nol reconcile its schedule of supporting expenditures to its general ledger for each
draw down from ACF electronic payment systems. In addition, BCAFS did not maintain payment
records identifying the course and allocation of funds drawn down:
Response:
BCAFS mainlains a general ledger system and processes all its accounling information
according to prescribed accounting standards. GY 2009 was marked by unprecedented

                                                  2
                                                                                                    Page 3 of 4




turnover of personnel in the Fiscal Department as well as the Agency in general. Filing and
control of some documentation which supports and reconciles BCAFS supporting schedules to
Its drawdown were not located at the lime of the review. However, BCAFS maintains payment
records identifying the cost and allocation of funds drawdown and charged to Head Start
allowable and allocated expenditures for every month within the GY 2009. These were
accurately reported on the SF- 269 filed by the Agency in GY 2009.

Time and Effort Reports Not Maintained
Finding: 

BCAFS did not maintain personnel activity reports during our audit period, BCAFS officials said 

that they were in the process of implementing a time and effort system. 

Response: 

BCAFS has policies and procedures that require that personnel activity reports be maintained 

for salaries that are allocated to more than one program. BCAFS implemented a Time and Effort 

reporting system in December, 20081hat is being appropriately followed . Therefore, the Agency 

is not in agreement with this finding. 


Internal Financial Reporting Deficiencies 

Finding: 

BCAFS did not prepare budgeted-versus-actual reports 10 compare ou\!ays wilh budgeted 

amounts in GY 2009. ConsequenUy, BCAFS governing board never received this informalion. 

In addition, BCAFS did not regularly provide other monthly financial reports 10 ils governing 

board either. 

Response; 

BCAFS Board and Management have instituted measures on regular financial reporting to its 

governing bodies. This reporting consists of Cash flows and Cash Management, monthly 

expenditures compared to budgeted amount with explanation of variances and variance 

analysis to ensure tha\the Agency's financial operations are in accordance with Federal and 

Head Start reporting guidelines. 


Financial Status Report Not Supported 

Finding: 

BCAFS could not support the Federal Share of net oullays tolaling $2,530,276, reported on its 

GY2009 SF-269, Financial Status Report to ACF. This should represent expenditures in 

BCAFS' general ledger. We found that the Federal share of net outlays exceeded Ihe general 

ledger lotals by $37,639. As a result we could not determine if BCAFS accurately reported its 

expenditures to ACF on its GY2009 final FSR. Also, BCAFS reported $591,609 in in-kind 

conlribullons and non-federal matching cosls on its GY 2009 FSR. However, BCAFS's general 

ledger only identified $379,627 of in-kind contributions in non-federal matching costs leaving 

$211 ,982 unsupported. 

Response: 

The $37,639 disparity between the general ledger and the SF- 269 was as a result of 

unobligated funds for GY 2009 that were not recorded in BCAF's general ledger due to the 

capability of BCAFS general system at the time. This type of problem has been corrected by 

investment in a more advanced and capable accounting system. 

The $379,627 is in relation to in-kind contribution. The $211 ,982 represents other non-federal 

funding sources used by BCAFS as match which are recorded in those Source's accounts. 

BCAFS will thus not show a total of $591,609 on its in-kind contribution section of the general 

ledger. Both sources will have 10 be considered in conjunction. The Agency is therefore not in 

agreement wilh this finding . 




                                           Page30f4
                                                                                                   Page 4 of 4




Fiscal Personnel Not Bonded

             fiscal personnel are not bonded:

                 employees are bonded. AUached please find the bonding policy.

Funded Enrollment Level not maintained 

Findi ng: 

BCAFS's Head Start funding was budgeted based on a funded enrollrnenllevel of 203. 

However, as of June 30, 2009, 161 students were enrolled in BCAFS's Head Start Program. As 

a result the programs actual enrollment was 21% less than its funded enrollmenllevel. 

Re sponse: 

The areas serviced by some Head Start programs have seen changing demographics. 

Presently, parents have more options for their children during a time of decreased funding for 

programs. BCAFS has encountered lowered enrollment in specific program options and we are 

aggressively seeking to address this problem. As a result our enroUment numbers have 

significantly improved. We are ahead of our schedule as agreed 10 with Ihe Head SIart Office 

and we are confident that we will meet our target goal of full enrollment by February 1, 2010. 


We understand that these areas have been Identified based upon original review of GY 2009. 

During the time following, the agency has undergone a transition. some personnel changes and 

improvements. At this time we are extremely confident that we are moving in the right direction 

and will continue to meet the needs of the children, parents and families with your continued 

support. 


Please feel free to contact me if you have any questions at (718) 330-0845.

Sincerely,



~----
Karen Wharton 

Chairperson, Board of Directors 




CC: 	Ms. Jennifer Campayne, Finance Committee 

     Mr. Emmanuel Glasu, Director of Finance 

     Ms. Katya Rattray 





                                                J>agc4of4
